Office of Material Loss Reviews
Report No. MLR-10-025


Material Loss Review of Affinity Bank,
Ventura, California




                                   March 2010
                                      Executive Summary
                                      Material Loss Review of Affinity Bank,
                                      Ventura, California


                                                                                      Report No. MLR-10-025
                                                                                                 March 2010

Why We Did The Audit
On August 28, 2009, the California Department of Financial Institutions (CDFI) closed Affinity Bank
(Affinity) and named the FDIC as receiver. On September 25, 2009, the FDIC notified the Office of
Inspector General (OIG) that Affinity’s total assets at closing were $1.2 billion and the estimated material
loss to the Deposit Insurance Fund (DIF) was $251.7 million. As of December 31, 2009, the loss had
increased to $261.6 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the
OIG conducted a material loss review of the failure of Affinity.

The audit objectives were to (1) determine the causes of Affinity’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of Affinity, including the FDIC’s implementation of
the Prompt Corrective Action (PCA) provisions of section 38.


Background
Affinity was incorporated in 1982 as a state-chartered industrial loan company (ILC) and changed
ownership and names several times before converting its charter, on May 20, 2004, from an ILC to a state
nonmember bank. Affinity operated 10 full-service retail branches. Predominantly a commercial real
estate (CRE) lender, Affinity also provided asset-based loans, financing for healthcare organizations, and
consumer and business loans in California. Affinity’s assets included, but were not limited to, CRE and
acquisition, development, and construction (ADC) loans and collateralized mortgage obligation (CMO)
investment securities.

In 2004, bank management recognized Affinity’s high CRE concentration as an increased risk to the
institution. As a result, Affinity converted from an ILC to a state nonmember bank, which enabled
Affinity to offer demand deposit products to businesses. Affinity’s business plan was to reduce its high
CRE concentrations, diversify into business banking and lending, and lower the bank’s cost of funds by
adding business transaction accounts to its deposit portfolio. However, the bank’s efforts to achieve those
goals were impacted by increased competition during growing economic weaknesses and the collapse of
the secondary market for loan sales. The bank was wholly-owned by a one-bank holding company,
Affinity Bank Holdings, Inc. The holding company had four subsidiaries that issued trust preferred
securities, with the proceeds being used to support Affinity’s capital position. In addition, Affinity had
four subsidiaries established to hold other real estate owned. One principal shareholder owned and
controlled 95.1 percent of the holding company and the remaining 4.9 percent was owned by Affinity’s
president.


Audit Results
Causes of Failure and Material Loss

Affinity failed because its Board and management did not effectively manage the risk associated with
strategic decisions to concentrate the bank’s loan portfolio in CRE and ADC loans and heavily invest in
CMOs. The high concentration in CRE lending, in conjunction with a downturn in the bank’s real estate
market, resulted in severe loan losses, particularly in ADC loans. Affinity also relied heavily on
wholesale funding to support the bank’s CRE and ADC concentrations, which increased the institution’s
risk profile.




                                  To view the full report, go to www.fdicig.gov
                                      Material Loss Review of Affinity Bank,
   Executive Summary                  Ventura, California

                                                                                       Report No. MLR-10-025
                                                                                                  March 2010


As the real estate market declined, Affinity experienced increasing levels of adversely classified assets
and associated losses and significant increases in the Allowance for Loan and Lease Losses (ALLL).
Affinity’s liquidity became deficient and access to certain funding sources became restricted. Losses and
provisions associated with the CRE and ADC concentrations eliminated earnings and severely eroded the
bank’s capital. While the bank had not yet experienced losses on the CMOs at the time it failed, a
moderate portion of those investments were considered substandard and the bank did not have sufficient
capital to absorb potential losses. Ultimately, CDFI closed Affinity due to the bank’s Critically
Undercapitalized position.

The FDIC’s Supervision of Affinity

From 2005 to 2009, the FDIC and the CDFI provided ongoing supervision of Affinity through on-site risk
management examinations and visitations. The FDIC also conducted offsite monitoring activities.
Through their supervisory efforts, the FDIC and the CDFI identified and brought key risks to the attention
of the bank’s Board and management, including the high levels of CRE and ADC concentrations and
associated weak risk management practices. With respect to Affinity’s heavy reliance on wholesale
funding sources, examiners expressed concern over the bank’s (1) need to improve its liquidity position
and address risks associated with its high net non-core dependence ratios and (2) high cost of funding that
was negatively impacting the bank’s earnings. Examiners also noted the risks associated with Affinity’s
CMO concentration and insufficient capital in relation to the bank’s risk profile.

The FDIC and the CDFI initiated supervisory or enforcement actions in 2008 and 2009 to address
identified deficiencies related to capital, asset quality, management, earnings, liquidity, concentrations,
and the ALLL. Notwithstanding these efforts, earlier and greater supervisory attention to Affinity may
have been warranted, given the elevated risks associated with CRE and ADC concentrations and
Affinity’s less than satisfactory financial condition, especially after the August 2007 examination.

With respect to PCA, we concluded that the FDIC had properly implemented applicable PCA provisions
of section 38 based on the supervisory actions taken for Affinity.


Management Response
After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On March 22, 2010, the Director, DSC, provided a written response to
the draft report. That response is provided in its entirety as Appendix 4 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of Affinity’s failure. With
respect to our assessment of supervision, DSC stated that based on the results of the August 2007
examination, DSC deliberated and proposed an informal enforcement action and that Affinity’s Board
adopted a Bank Board Resolution in February 2008 that required the bank to augment its capital position
commensurate with its risk profile. DSC agreed, however, that a stronger regulatory response could have
been taken to address the weak practices identified at that examination. Further, DSC stated that it has
issued updated guidance reminding examiners to take appropriate action when concentration and funding
risks are imprudently managed.




                                  To view the full report, go to www.fdicig.gov
                                     Contents
                                                                                  Page
Background                                                                          2

Causes of Failure and Material Loss                                                 3
 Board of Directors and Management Oversight                                        3
 CRE and ADC Loan Growth and Concentrations                                         4
 Collateralized Mortgage-Backed Obligation (CMO) Bond Holdings                      7
 Sufficiency of Capital Relative to Affinity’s Risk Profile                         9
 Adverse Classifications and ALLL                                                  10
 Reliance on Wholesale Funding Sources                                             12

The FDIC’s Supervision of Affinity                                                 14
  Supervisory History                                                              14
  Supervisory Approach to CRE, ADC, and CMO Concentrations                         16
  Implementation of PCA                                                            20

Corporation Comments                                                               22


Appendices
   1.   Objectives, Scope, and Methodology                                         23
   2.   Glossary of Terms                                                          26
   3.   Acronyms                                                                   28
   4.   Corporation Comments                                                       29

Tables
   1. Selected Financial Information for Affinity                                   3
   2. Affinity’s CRE, ADC, and CMO Concentrations as a Percentage of Tier           9
       1 Capital at Examination Dates
   3. Affinity’s Adverse Classifications and ALLL                                  11
   4. Affinity’s Non-Core Funding Sources                                          13
   5. Affinity’s Supervisory History from 2005 to 2009                             15
   6. Affinity’s Capital Ratios Relative to PCA Thresholds for Well Capitalized    20
       Banks

Figures
   1.    Composition and Growth of Affinity’s Loan Portfolio                        4
   2.    Affinity’s CRE Loan Concentration to Total Capital Compared to Peers       6
   3.    Affinity’s ADC Loan Concentration to Total Capital Compared to Peers       6
   4.    Affinity’s CMO Concentration Amounts by Examination Dates                  7
   5.    Affinity’s Tier 1 Leverage Capital Compared to Peers                      10
   6.    Affinity’s Non-Core Funding Dependence Ratios                             13
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           March 25, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Affinity Bank, Ventura, California
                                                (Report No. MLR-10-025)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Affinity Bank
(Affinity), Ventura, California. The California Department of Financial Institutions
(CDFI) closed the institution on August 28, 2009 and named the FDIC as receiver. On
September 25, 2009, the FDIC notified the OIG that Affinity’s total assets at closing were
$1.2 billion and the estimated material loss to the Deposit Insurance Fund (DIF) was
$251.7 million. As of December 31, 2009, the loss had increased to $261.6 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of Affinity’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of Affinity,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.
This report presents our analysis of Affinity’s failure and the FDIC’s efforts to ensure
that Affinity’s Board of Directors (Board) and management operated the institution in a
safe and sound manner.



1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
The report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of financial institution failures are identified in our material
loss reviews, we will communicate those to management for its consideration. As
resources allow, we may also conduct more in-depth reviews of specific aspects of DSC’s
supervision program and make recommendations, as warranted. Appendix 1 contains
details on our objectives, scope, and methodology. Appendix 2 contains a glossary of
key terms and Appendix 3 contains a list of acronyms. Appendix 4 contains the
Corporation’s comments on this report.

Background
Affinity was incorporated in 1982 as a state-chartered industrial loan company (ILC)3 and
changed ownership and names several times before converting its charter, on May 20,
2004, from an ILC to a state nonmember bank. Affinity operated 10 full-service retail
branches. Predominantly a commercial real estate (CRE) lender, Affinity also provided
asset-based loans, financing for healthcare organizations, and consumer and business
loans in California. Affinity’s assets included, but were not limited to, CRE and
acquisition, development, and construction (ADC) loans and collateralized mortgage
obligation (CMO) investment securities.

In 2004, bank management recognized Affinity’s high CRE concentration as an increased
risk to the institution.4 As a result, Affinity converted from an ILC to a state nonmember
bank, which enabled Affinity to offer demand deposit products to businesses. Affinity’s
business plan was to reduce its high CRE concentrations, diversify into business banking
and lending, and lower the bank’s cost of funds by adding business transaction accounts
to its deposit portfolio. However, the bank’s efforts to achieve those goals were impacted
by increased competition during growing economic weaknesses and the collapse of the
secondary market for loan sales. The bank was wholly-owned by a one-bank holding
company, Affinity Bank Holdings, Inc. The holding company had four subsidiaries that
issued trust preferred securities, with the proceeds being used to support Affinity’s capital
position. In addition, Affinity had four subsidiaries established to hold other real estate
owned. One principal shareholder owned and controlled 95.1 percent of the holding
company, and the remaining 4.9 percent was owned by Affinity’s president.

Table 1 summarizes Affinity’s financial condition for the quarter ending June 2009, and
for the 4 preceding calendar years.




3
  ILCs are state-chartered, FDIC-supervised financial institutions that may be owned by commercial firms
that are not regulated by a federal banking agency. In the case of ILCs, the chartering authority is the
respective state regulatory agency. Approvals must be granted by the FDIC and the chartering state
authority for an ILC to accept insured deposits. The FDIC is the primary federal regulator of ILCs.
However, the chartering state authority also has responsibility to supervise and monitor the ILCs in the
respective state.
4
  Affinity Bank Holdings, Inc., Application and Supporting Documentation for the TARP [Troubled Asset
Relief Program] Capital Purchase Program, dated February 12, 2009.


                                                    2
  Table 1: Selected Financial Information for Affinity
                                 Jun-09         Dec-08            Dec-07    Dec-06      Dec-05
     Financial Measure
                                                     (Dollars in Thousands)
   Total Assets                1,211,431       1,231,605     1,181,061     1,096,821   1,035,815
   Total Loans                  830,647         917,611       830,929       791,459     804,109
   Total Deposits               905,593         867,329       688,467       660,844     616,393
   Net Income (Loss)            (41,284)        (38,190)        238          9,034       16,255
  Source: Uniform Bank Performance Reports (UBPR) for Affinity.



Causes of Failure and Material Loss
Affinity failed because its Board and management did not effectively manage the risk
associated with strategic decisions to concentrate the bank’s loan portfolio in CRE and
ADC loans and heavily invest in CMOs. The high concentration in CRE lending, in
conjunction with a downturn in the bank’s real estate market, resulted in severe loan
losses, particularly in ADC loans. Affinity also relied heavily on wholesale funding to
support the bank’s CRE and ADC concentrations, which increased the institution’s risk
profile.

As the real estate market declined, Affinity experienced increasing levels of adversely
classified assets and associated losses and significant increases in the Allowance for Loan
and Lease Losses (ALLL). Affinity’s liquidity became deficient and access to certain
funding sources became restricted. Losses and provisions associated with the CRE and
ADC concentrations eliminated earnings and severely eroded the bank’s capital. While
the bank had not yet experienced losses on the CMOs at the time it failed, a moderate
portion of those investments were considered substandard and the bank did not have
sufficient capital to absorb potential losses. Ultimately, CDFI closed Affinity due to the
bank’s Critically Undercapitalized position.

Board of Directors and Management Oversight

According to DSC’s Risk Management Manual of Examination Policies (Examination
Manual), the quality of management is probably the single most important element in the
successful operation of a bank. The Board formulates sound policies and objectives and
provides for the effective supervision of its affairs and promotion of a bank’s welfare.
The primary responsibility of senior management is to implement the Board’s policies
and objectives into the bank’s day-to-day operations.

The FDIC concluded that Affinity’s Board and management’s strategic lending and
investment decisions concerning CRE and CMOs, decreased earnings, capital, and
liquidity, and increased the bank’s sensitivity to market risk. In addition, the Board did
not ensure that (1) bank management controlled the risk of growth and level of
concentrations in the CRE loan portfolio and implemented risk management practices
commensurate with the inherent risks in that portfolio; (2) capital levels were
commensurate with Affinity’s risk profile; and (3) an adequate ALLL was maintained.


                                                 3
High-Risk Business Strategy

As discussed more fully in subsequent sections of this report, the strategic decisions by
Affinity’s Board and management to (1) concentrate the loan portfolio in CRE and ADC
loans, (2) maintain and increase those concentrations during a severe economic downturn
without ensuring consistent and adequate risk monitoring and reporting, and (3) develop
and maintain a CMO concentration proved detrimental to the bank’s viability. According
to examiners, Affinity’s Board and management attempted to reduce its CRE
concentration level and adequately responded to concerns identified during an August
2007 examination. Notwithstanding those efforts, examiners determined that the Board
and management’s performance steadily and significantly declined during 2008 as the
bank’s risk profile increased and its financial condition worsened. Ultimately, examiners
considered Affinity’s management practices to be critically deficient just prior to the
bank’s failure.

CRE and ADC Loan Growth and Concentrations

The majority of Affinity’s loan growth occurred when the bank was an ILC, with total
loan growth rates ranging from 18.38 percent to 38.21 percent between December 2000
and December 2004, respectively. Figure 1 shows Affinity’s loan portfolio composition,
including the extent of Affinity’s CRE and ADC loans.

Figure 1: Composition and Growth of Affinity’s Loan Portfolio

                                                             Commercial & Other Loans
                                        $1,000               Other CRE Loans                   $918
                                                             ADC Loans
                                         $900       $807        $804                 $831     $51         $831
                                                                         $791
                                                   $18                              $33                  $49
                                         $800                 $71        $66
    Gross Loans and Leases (Millions)




                                         $700

                                         $600
                                                                                              $650
                                         $500                                       $588
                                                                                                         $616
                                                  $750        $658       $606
                                         $400

                                         $300

                                          $200
                                                                                    $210      $217       $166
                                          $100                           $119
                                                   $39        $75
                                           $0
                                                 Dec-2004   Dec-2005   Dec-2006 Dec-2007    Dec-2008   Jun-2009
                                                                         Period Ended

Source: Reports of Condition and Income (Call Report).

While the rate of Affinity’s overall loan growth slowed between December 2005 and
June 2009, the composition of the loan portfolio became more oriented towards CRE and,


                                                                                4
in particular, ADC loans, as indicated in Figure 1. Of note was the growth in CRE and
ADC loans between December 2006 and December 2008. More specifically, during that
timeframe, although Affinity’s total CRE loans had increased by only 19.6 percent, the
growth in the more risky ADC loans for that same period increased by 82.4 percent.

The risks that CRE and ADC concentrations pose to financial institutions’ earnings and
capital have been evident to supervisory agencies, which have provided guidance on
managing these risks to financial institutions as far back as 1998 and more recently in
December 2006. Specifically, Financial Institution Letter (FIL) 110-98, entitled, Internal
and Regulatory Guidelines for Managing Risks Associated with Acquisition,
Development, and Construction Lending, dated October 8, 1998, states that ADC lending
is a highly specialized field with inherent risks that must be managed and controlled to
ensure that the activity remains profitable.

December 2006 guidance issued by the FDIC, the Office of the Comptroller of the
Currency, and the Board of Governors of the Federal Reserve System, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance) does not establish specific CRE lending limits. However, the Joint
Guidance defines criteria to identify institutions potentially exposed to significant CRE
concentration risk. According to the guidance, a bank that has experienced rapid growth
in CRE lending, has notable exposure to a specific type of CRE, or is approaching or
exceeds the following supervisory criteria may be identified for further supervisory
analysis of the level and nature of its CRE concentration risk:

        Total reported loans for construction, land development, and other land (referred
         to in this report as ADC) representing 100 percent or more of Total Capital; or

        Total CRE loans representing 300 percent or more of Total Capital where the
         outstanding balance of the institution’s CRE loan portfolio has increased by
         50 percent or more during the prior 36 months.

As shown in Figure 2, Affinity’s CRE loan concentration ranged from 906 percent of
Total Capital in December 2004 to 1,216 percent in December 2008, significantly
exceeding the averages for the bank’s peers.5




5
  Commercial banks are assigned to one of 25 peer groups based on asset size, number of branches, and
whether the bank is located in a metropolitan or non-metropolitan area. Affinity’s peer group was that of all
insured commercial banks with assets between $1 billion and $3 billion.


                                                     5
Figure 2: Affinity’s CRE Loan Concentration to Total Capital Compared to Peers

                                                    Affinity          Peers

               1400%
                                                                                         1216%
               1200%
               1000%             906%                                     863%
                                              816%
  Percentage




                                                               787%
               800%
               600%                                     389%            405%
                            330%          359%
               400%                                                                      420%

               200%
                 0%
                          Dec-04         Dec-05        Dec-06           Dec-07       Dec-08
                                                   Period Ending
                       Level under which concentration does not warrant greater supevisory analysis.
 Source: UBPRs for Affinity.

Figure 3 illustrates the growth in Affinity’s ADC loan concentration that eventually
substantially exceeded the average of its peers beginning in December 2006.

Figure 3: Affinity’s ADC Loan Concentration to Total Capital Compared to Peers

                                                   Affinity       Peers

               350%
                                                                                         304%
               300%
                                                                          227%
               250%
  Percentage




               200%
                                                       136%
               150%                      107%
                           81%                                                147%
               100%                                            129%                    139%
                                             83%
               50%             45%
                0%
                         Dec-04         Dec-05         Dec-06           Dec-07       Dec-08
                                                  Period Ending
                       Level under which concentration does not warrant greater supevisory analysis.
 Source: UBPRs for Affinity.

Examiners consistently reported Affinity’s significant CRE and ADC concentrations, but
bank management failed to take timely and effective action to reduce the concentrations
or adequately manage the associated risks. As far back as 2004, Affinity’s CRE loans to
Total Capital exceeded the 300 percent parameter that may warrant further supervisory
analysis established later in the Joint Guidance. From 2006 through 2009, Affinity’s



                                                              6
ADC loans also exceeded the supervisory criteria for identifying an institution potentially
exposed to concentration risk.

Risk Management Practices

While examiners generally concluded that Affinity adequately monitored the risk
associated with the bank’s CRE and ADC concentrations, they also reported deficiencies
and made recommendations related to the bank’s credit risk identification and
monitoring. Examiners observed that while Affinity had established individual limits for
construction loans by property types, which totaled 1,000 percent of Tier 1 Capital, the
bank had not established an appropriate limit that considered the bank’s total exposure in
construction loans. Accordingly, examiners made recommendations related to the need
for Affinity to establish such a limit and:

                         report aggregate totals to the Board when geographically stratifying the bank’s
                          California market area,

                         review Board limits on construction loans to assure reasonableness as they
                          appeared excessive and out of line with the business plan, and

                         enhance the Loan Concentration Monitoring Reports to include undisbursed loan
                          commitment amounts.

Collateralized Mortgage-Backed Obligation (CMO) Bond Holdings

Following the acquisition of a savings and loan (S&L) in 2001, Affinity continued the
S&L’s strategy of investing in discounted Z-tranche CMOs to capitalize on inefficiencies
in the mortgage-backed securities market. Figure 4 shows the dollar volume of Affinity’s
CMO concentration by examination dates.

Figure 4: Affinity’s CMO Concentration Amounts by Examination Dates



                          300
                                     244          250
    Amounts ($Millions)




                          250
                          200                                     212
                                                                                          182
                          150
                                                                             139
                          100
                          50
                           0
                                  Jul-05      Aug-06       Aug-07        Oct-08      Jun-09
                                                     Examination Dates

Source: Examination Reports for Affinity.



                                                              7
Affinity’s CMO portfolio had declined by about 25 percent by the time the bank failed in
2009, but it nonetheless increased the bank’s risk profile due to the specific
characteristics of the CMOs.

A CMO is a mortgage derivative security consisting of several classes (tranches) secured
by mortgage pass-through securities or whole mortgage loans. Principal and interest
payments from the underlying collateral are divided into separate payment streams that
repay investors in the various tranches at different rates. In the case of Affinity, it owned
AAA-rated, Z-tranche CMOs. The AAA rating signifies the highest investment grade
and means that there is very low credit risk. However, holders of a Z-tranche CMO do
not receive any cash (principal or interest) while all prior tranches are outstanding.
Instead, the Z-tranche accrues interest as principal until all prior tranches are retired.
Therefore, its principal balance increases during the accrual period. Once all prior
tranches are retired, the holder of the security receives principal and interest payments
based on its new higher principal balance.

As far back as the July 2005 examination, examiners expressed concern regarding the
interest rate risk (IRR) exposure from the CMO concentration, which contributed to their
decision to downgrade Affinity’s sensitivity to market risk supervisory CAMELS rating.6
Although the CMOs did not directly contribute to the bank’s failure, the following are
some of the concerns examiners expressed in examination reports:

        The 2006 examination noted that income from the CMO portfolio continued to
         diminish due to an increase in interest rates, and examiners concluded that the
         CMO portfolio was subject to risk during a period of increasing interest rates.

        The 2007 examination concluded that Affinity’s decision to invest in high-risk
         Z-tranche CMOs was negatively impacting the bank. The CMOs had been
         impacted by rising interest rates, which had contributed to the narrowed net
         interest margin for Affinity, and uncertainty regarding market value of the CMO
         portfolio generated concerns about the bank’s capital adequacy.

        By the October 2008 examination, examiners expected that the CMO portfolio
         would perform well but acknowledged that the depth of the mortgage market
         downturn might change that assessment.


6
  The Uniform Financial Institutions Rating System (UFIRS) is an internal supervisory tool, used by the
federal supervisory agencies of the Federal Financial Institutions Examination Council (FFIEC) for
evaluating the soundness of financial institutions on a uniform basis and for identifying those institutions
requiring special attention or concern. Each financial institution is assigned a composite rating based on an
evaluation and rating of six essential components of an institution's financial condition and operations,
CAMELS (Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk).
Composite and component ratings are assigned based on a 1 to 5 numerical scale. A 1 indicates the highest
rating, strongest performance and risk management practices, and least degree of supervisory concern,
while a 5 indicates the lowest rating, weakest performance, inadequate risk management practices, and,
therefore, the highest degree of supervisory concern.


                                                      8
As a result of the June 2009 visitation, examiners adversely classified $42 million of the
CMOs as Substandard, representing 23 percent of the CMO portfolio and 17 percent of
the total adversely classified items.

Sufficiency of Capital Relative to Affinity’s Risk Profile

Affinity’s Board and management failed to maintain capital commensurate with the
bank’s risk profile. Examiners concluded that Affinity needed to maintain capital levels
above the minimal levels for Well Capitalized financial institution due to:

             the inherent risk associated with the CRE and ADC concentrations,
             the interest rate risk exposure and associated market value uncertainty related
              to the bank’s CMOs, and
             Affinity’s low and declining earnings.

As shown in Table 2, at each of Affinity’s examinations, the three concentrations, when
considered together, significantly and consistently represented substantial percentages of
the bank’s Tier 1 Capital.

  Table 2: Affinity’s CRE, ADC, and CMO Concentrations as a Percentage of
           Tier 1 Capital at Examination Dates
            Concentration             July-05       Aug-06        Aug-07          Oct -08

                CRE                   893%          1,009%         984%           1,191%
                ADC                   176%          186%           209%           395%
                CMO                   303%          300%           255%           168%
  Source: Examination reports for Affinity.

According to the Examination Manual, a financial institution is expected to maintain
capital commensurate with the nature and extent of risks to the institution and the ability
of management to identify, measure, monitor, and control these risks. The effect of
credit, market, and other risks on the institution’s financial condition should be
considered when evaluating the adequacy of capital. The types and quantity of risk
inherent in an institution’s activities will determine the extent to which it may be
necessary to maintain capital at levels above required regulatory minimums to properly
reflect the potentially adverse consequences that these risks may have on the institution’s
capital.

The need for sufficient capital was reinforced in the Joint Guidance, which noted that an
institution should hold capital commensurate with the level and nature of the risks to
which it is exposed, including the risk profile of their CRE portfolios. An institution with
inadequate capital to serve as a buffer against unexpected losses from a CRE
concentration should develop a plan for reducing its CRE concentration or for
maintaining capital appropriate to the level and nature of its CRE concentration risk.




                                                9
Although Affinity’s CRE concentration levels were significantly above peer levels as
shown in Figure 2, Affinity’s Tier 1 Leverage Capital ratios were well below peer ratios
for year-end 2005 through 2008, as reflected in Figure 5.

Figure 5: Affinity’s Tier 1 Leverage Capital Compared to Peers

                                                Affinity           Peers

                  10.00%
                               9.19%       8.65%           8.70%           8.73%
                                                                                      8.41%
                  8.00%    8.69%       7.85%
     Percentage




                                                      7.93%
                  6.00%                                              6.86%
                                                                                       4.74%
                  4.00%
                  2.00%
                  0.00%
                           Dec-04      Dec-05        Dec-06          Dec-07        Dec-08
                                                Period Ending
Source: UBPRs for Affinity.

Affinity attempted to increase the bank’s capital during 2008 and, according to the
December 31, 2008 Call Report, received $16 million in capital from the bank’s holding
company and/or principal shareholder. However, those efforts did not have a significant
and lasting impact on the bank’s capital position because of significant deterioration in
asset quality and loan losses. Affinity’s capital ratios continued to decline and remained
below both the bank’s peers and levels outlined in the capital plans submitted in response
to a February 2008 Bank Board Resolution (BBR).7

The October 2008 examination concluded that it was imperative that Affinity obtain
additional capital to support the bank’s risk profile. By June 2009, examiners determined
that Affinity’s capital had been depleted to a level that threatened the bank’s viability.
After making adjustments for classified assets and provision expense to replenish the
ALLL, the bank was determined to be Critically Undercapitalized. On July 1, 2009, the
CDFI informed Affinity’s Board that $66 million was needed to increase the bank’s
capital to a satisfactory level.

Adverse Classifications and ALLL

The July 2005 through August 2007 examinations did not identify a need for the bank to
increase its ALLL. However, by the March 2008 visitation, Affinity’s adversely
classified assets totaled $65.7 million, or 70.6 percent of Tier 1 Capital and reserves,
representing a significant increase over the $20 million, or 21.9 percent of capital and
reserves at the August 2007 examination. The majority of the classifications were
residential ADC loans. Internally listed “Special Mention” loans totaling $40.5 million
were also reported, most of which were also ADC loans. Examiners attributed the

7
    See the Supervisory History section of this report for discussion of the BBR.


                                                            10
deterioration in asset quality to the downturn in the residential real estate market and
concluded, at the time, that Affinity’s management was properly and timely identifying
problem loans and aggressively addressing loan-related problems. However, both
examiners and bank management acknowledged that conditions in the real estate market
would impact the bank throughout 2008 and anticipated that the deterioration in the
bank’s loan portfolio would persist into 2009. Accordingly, management budgeted an
additional $1 million in loan loss provisions for both the second and third quarters of
2008.

As indicated in Table 3, the examiners and Affinity’s management were proven correct,
as the deterioration in the bank’s loan portfolio continued. Although management
increased the ALLL each year, examiners recommended even higher provisions,
beginning with the October 2008 examination. At both the March 2008 and June 2009
visitations, examiners reported significant increases in adversely classified assets and
related loan loss provisions, which required substantial increases in the ALLL.

  Table 3: Affinity’s Adverse Classifications and ALLL
    Examination                                                       Affinity’s           Examiner
       Dates           Classifications          Adverse              Funding for         Recommended
                         Coverage            Classifications           ALLL                Increase
                           Ratio
                                                               (Dollars in Thousands)
        Aug-07              21.9%                 20,086                8,600                    0
        Oct-08             120.5%                120,669               12,500*                 5,400
        Jun-09             318.8%                243,055                20,480                26,000
  Source: Examination reports and UBPRs for Affinity.
  * The “as of” financial date for this examination was June 30, 2008, at which time the ALLL totaled
  $17.3 million. However, as of September 30, 2008, the ALLL totaled $12.5 million, which examiners
  concluded was not appropriate and recommended a $5.4 million increase.

The joint FDIC and CDFI October 2008 examination reported that Affinity continued to
have a significant level of credit risk concentration. Examiners concluded that the
continuing downturn in the real estate market, deteriorating economic conditions, and
management’s business strategy to concentrate in CRE lending, particularly residential
ADC loans, contributed to the substantially high volume of adversely classified assets.
Specifically, the October 2008 examination reported that:

       Poor asset quality required large provision expenses due to heavy loan losses.

       Management needed to reverse the deterioration in the loan portfolio and reduce
        problem assets.

       The credit risk exposure was heightened and remained a regulatory concern in
        view of the magnitude of classified assets and adverse conditions in the real
        estate market.




                                                   11
       Management had failed to recognize certain credit weaknesses and assign
        appropriate loan grades in a timely and accurate manner and needed to further
        enhance the bank’s credit risk rating system.

By the June 2009 visitation, examiners concluded that:

       Affinity’s Board and management lacked the ability to correct and/or control the
        bank’s financial condition due to the volume and severity of problem loans.

       Asset quality deterioration was concentrated in CRE, particularly construction and
        land development loans, which represented 77 percent of total adverse
        classifications and 94 percent of loss classifications.

       CMO securities totaling $42 million were classified Substandard, representing
        17 percent of total adverse classifications.

Reliance on Wholesale Funding Sources

Typically, limited-charter depository institutions can engage in most activities permitted
for other insured depository institutions but cannot accept demand deposits, except in
limited circumstances. Affinity’s former status as an ILC prevented it from accepting
demand deposits, and bank management was unsuccessful in obtaining a sufficient
amount of core deposits after Affinity’s conversion to a commercial bank in October
2004. As a result, for several years, Affinity supplemented core deposits with high levels
of non-core wholesale funds to support the bank’s asset growth.

The pre-examination planning (PEP) memorandum for the August 2007 examination
noted that core deposits represented 69 percent of the bank’s total deposits, while
brokered deposits and other non-core funding sources comprised 31 percent. Between
the August 2007 and October 2008 examinations, Affinity’s level of brokered deposits
tripled from $21.4 million to $67.3 million, although those deposits represented only
9 percent of the bank’s total deposits at the time. Contrary to the examiners’
recommendation at the August 2007 examination that management decrease or limit its
heavy reliance on expensive, non-core funding sources, Affinity’s reliance on wholesale
funding continued through June 2009.

Table 4 illustrates Affinity’s primary sources of non-core funding from December 2004
through June 2009. The bank’s use of such high-cost funding contributed to the decrease
in Affinity’s earnings for several years.




                                            12
Table 4: Affinity’s Non-Core Funding Sources
     Non-Core Funding                 Dec            Dec            Dec         Dec           Dec        Jun
         Sources                       04             05             06          07            08         09
                                                                 (Dollars in Thousands)
 Time Deposits $100,000              165,997        163,039       177,513         191,616     242,414   261,011
 or more
 Federal Funds Purchases                      0              0             0        45,000     15,000    15,000
 and Resale
 Federal Home Loan                   288,432        330,426       347,019         361,484     294,447   274,427
 Bank Borrowings
 Brokered Deposits                    40,070          5,059              199        30,114     85,920    50,166
Source: UBPRs for Affinity.

The Examination Manual states that the net non-core funding dependence ratio is a key
measure of the degree to which a bank relies on potentially volatile liabilities to fund
long-term earning assets. Generally, the lower the dependence ratio, the less risk
exposure there is for the bank. As indicated in Figure 6, Affinity’s net non-core funding
dependence ratios remained high and consistently exceeded those of the bank’s peers for
the period December 2004 through December 2008.

Figure 6: Affinity’s Non-Core Funding Dependence Ratios
                                              Affinity           Peers

                50.00%
                                           41.65%                        41.94%      42.82%
                            37.25%                   39.85%
                40.00%
   Percentage




                30.00%                                                            35.29%
                                                  27.27%          29.31%
                20.00%            26.38%
                         21.30%
                10.00%
                0.00%
                         Dec-04      Dec-05         Dec-06         Dec-07         Dec-08
                                              Period Ending
Source: UBPRs for Affinity.

The increase in Affinity’s non-core funding dependence ratio from 2006 to 2008, during
the period in which the bank also significantly increased its CRE and ADC
concentrations, provides further evidence of the role these funds likely played in the
bank’s growth. According to the Examination Manual, a bank’s fund management
practices should ensure that liquidity is not maintained at a high cost or through undue
reliance on funding sources that may not be available in times of financial stress or
adverse changes in market conditions. As Affinity’s loan portfolio and overall financial
condition deteriorated, the availability of some of the bank’s non-core funding sources
became strained. For example, the bank’s (1) FHLB borrowing line, which was a
primary funding tool for Affinity, was reduced from 40 percent to 25 percent of total
assets in 2008, and by the June 2009 visitation, the FHLB had further limited the bank’s
line of credit; (2) lines of credit with other financial institutions were not renewed; and


                                                           13
(3) access to brokered deposits became restricted when Affinity’s PCA capital category
fell from Well Capitalized to Adequately Capitalized.8

Further, the FDIC has provided extensive guidance to financial institutions regarding the
need for, and the suggested components of, a comprehensive contingency liquidity plan
(CLP). In that regard, examiners at the June 2009 visitation, determined that Affinity had
not adequately addressed prior recommendations for the bank to develop an adequate
CLP to (1) assess the potential for triggering restrictions on the bank’s access to brokered
and high-cost deposits and the effect on its liability structure and (2) identify and assess
the adequacy of Affinity’s contingent funding sources.


The FDIC’s Supervision of Affinity
From 2005 to 2009, the FDIC and the CDFI provided ongoing supervision of Affinity
through on-site risk management examinations and visitations. The FDIC also conducted
offsite monitoring activities. Through their supervisory efforts, the FDIC and the CDFI
identified and brought key risks to the attention of the bank’s Board and management,
including the high levels of CRE and ADC concentrations and associated weak risk
management practices. With respect to Affinity’s heavy reliance on wholesale funding
sources, examiners expressed concern over the bank’s (1) need to improve its liquidity
position and address risks associated with its high net non-core dependence ratios and
(2) high cost of funding that was negatively impacting the bank’s earnings. Examiners
also noted the risks associated with Affinity’s CMO concentration and insufficient capital
in relation to the bank’s risk profile.

The FDIC and the CDFI initiated supervisory or enforcement actions in 2008 and 2009 to
address identified deficiencies related to capital, asset quality, management, earnings,
liquidity, concentrations, and the ALLL. Notwithstanding these efforts, earlier and
greater supervisory attention to Affinity may have been warranted, given the elevated
risks associated with CRE and ADC concentrations and Affinity’s less than satisfactory
financial condition, especially after the August 2007 examination.

Supervisory History

The FDIC and the CDFI performed four examinations and one visitation of Affinity from
July 2005 until the bank was closed in August 2009. The FDIC also independently

8
  Section 29 of the FDI Act prohibits an insured depository institution that is Adequately Capitalized from
accepting funds obtained, directly or indirectly, by or through any deposit broker for deposit into one or
more deposit accounts, but permits the FDIC to grant a waiver from the prohibition. Banks that are
Undercapitalized (including Significantly Undercapitalized) under PCA provisions are subject to the
prohibition but may not obtain a waiver. On May 29, 2009, the FDIC issued guidance regarding revisions
to the interest rate restrictions under Part 337.6 of the FDIC Rules and Regulations. When evaluating the
Part 337.6 compliance of an institution that is less than Well Capitalized, the FDIC will deem the national
rate to be the prevailing rate in all market areas, unless it agrees with evidence provided by the institution
that it is operating in an area where prevailing deposit interest rates are higher. The final rule became
effective January 1, 2010.


                                                      14
conducted one visitation in March 2008. Table 5 summarizes key examination and
visitation information, including the PCA Directive effective July 31, 2009.

Table 5: Affinity’s Supervisory History From 2005 to 2009
  Examination                                                Supervisory
  or Visitation        Examination                             Ratings         Supervisory or Enforcement
   Start Date           as of Date         Agency              (UFIRS)                  Actions
   07/25/2005           06/30/2005           Joint            222223/2     None
   08/14/2006           06/30/2006           Joint            222323/2     None
   08/13/2007           06/30/2007           Joint            323333/3     BBR – Effective 02/28/2008.
   03/24/2008*          12/31/2007           FDIC             Not Rated    None
   10/06/2008           06/30/2008           Joint            444444/4     Cease and Desist Order (C&D) –
                                                                           Effective 04/22/2009.
   06/15/2009*          03/31/2009           Joint            555544/5     PCA Directive – Effective 07/31/2009.
 Source: Examination reports and visitations for Affinity.
* Denotes Report of Visitation dates.


July 2005 and August 2006 Examinations. The FDIC and the CDFI focused their
concerns on improvements needed in risk management practices for interest rate risk and
Affinity’s high cost of funds due to its reliance on wholesale funds. Earnings
performance declined to less than satisfactory at the August 2006 examination due to
unprofitable investments in the bank’s asset-based lending division and additional
branches that were established as Affinity transitioned from an ILC to a commercial
bank. Additionally, income from Affinity’s CMO portfolio had decreased.

Examiners made recommendations regarding risk exposure limits for significant CRE
and CMO concentrations. The level of adversely classified assets increased significantly,
from 10.5 percent of Tier 1 Capital and reserves at the July 2005 examination, to
40.4 percent of Tier 1 Capital and reserves at the August 2006 examination.
Nevertheless, examiners reported that the classification level was manageable and asset
quality was satisfactory.

August 2007 Examination Through June 2009 Visitation. Examinations and
visitations conducted by the FDIC and the CDFI from 2007 through 2009 identified
continued and pronounced deterioration in Affinity’s financial condition, with the decline
centered in the CRE and ADC concentrations.

         The August 2007 examination concluded that the bank’s overall condition was
          less than satisfactory and examiners expressed concerns regarding Affinity’s
          capital, management, earnings, liquidity, and sensitivity to market risk. To
          address those concerns, examiners recommended an informal action, after which
          Affinity’s Board adopted a BBR. The BBR is discussed in more detail in the next
          section of this report.

         The March 2008 visitation concluded that the overall condition of Affinity was
          less than satisfactory and noted, among other concerns, the negative impact of the
          economic decline on the bank and the deterioration in asset quality.



                                                             15
        The October 2008 examination noted that Affinity’s condition had significantly
         deteriorated and was unsatisfactory, and reported specific concerns regarding the
         bank’s high loan concentrations, capital, earnings, liquidity, and sensitivity to
         market risk. Examiners also noted continued deterioration in the Board and
         management’s performance and concluded that such performance was critically
         deficient.

By June 2009, examiners concluded that the bank’s condition had deteriorated to the
point where Affinity’s viability was threatened. Asset quality was critically deficient,
with adverse classifications totaling more than 318 percent of capital and reserves. As of
June 30, 2009, $26 million in loan loss provisions were required. The overall condition
of Affinity was downgraded to “5”, indicating extremely unsafe and unsound practices or
conditions, critically deficient performance, and great supervisory concern. The FDIC
and the CDFI issued a C&D on April 22, 2009, to address Affinity’s unsafe and unsound
practices and a PCA Directive in July 2009 to address the bank’s inadequate capital.
Board and management’s efforts to improve the bank’s condition and attempts to sell the
bank and increase capital were unsuccessful, resulting in the CDFI closing Affinity on
August 28, 2009.

Supervisory Approach to CRE, ADC, and CMO Concentrations

As discussed earlier in this report, examiners in 2005 and 2006 identified the risks
associated with Affinity’s CRE, ADC, and CMO concentrations and made
recommendations to enhance the risk management practices for the CRE and ADC
concentrations. In addition, examiners expressed concern regarding the impact that the
CMO concentration was having on the bank’s interest rate risk, capital, and earnings.
Subsequent supervisory activities identified additional risk to Affinity, as discussed
below.

August 2007 Examination. The PEP for the August 2007 examination noted that
Affinity had significant levels of CRE loans and a Real Estate Stress Test (REST) score
of 4.99 percent.9 Such a score indicated a high exposure to a potential economic
downturn. In addition, the August 2007 examination determined that Affinity continued
to have a significant concentration risk, with the CRE concentration totaling 984 percent
of Tier 1 Capital. However, examiners concluded that the concentration risk was partly
mitigated by the fact that management had been implementing practices consistent with
the Joint Guidance. In addition, examiners concluded that bank management had
diversified the CRE loans and generally received adequate monitoring reports.
Examiners acknowledged, however, that if specific or overall markets deteriorated, the

9
  REST attempts to simulate what would happen to banks today if they encountered a real estate crisis
similar to that of New England in the early 1990s. The primary risk factor is the ratio of construction and
development loans to total assets. Other risk factors include the percentage of CRE loans, percentage of
multifamily loans, percentage of commercial and industrial loans, and high non-core funding and rapid
asset growth. A bank with a high concentration in construction and development loans, coupled with rapid
asset growth, would appear to be riskier than a bank with similar concentrations but low asset growth.
REST uses statistical techniques and Call Report data to forecast an institution’s condition over a 3- to
5- year period and provides a single rating from 1 to 5 in descending order of performance quality.


                                                    16
bank’s loan quality could experience significant deterioration and negatively impact
Affinity’s capital and earnings.

Examiners concluded that Affinity’s overall condition was less than satisfactory and
expressed considerable concern regarding the bank’s CMO concentration and the
associated risks, and reflected those concerns in the bank’s CAMELS ratings. Capital
levels had declined and were considered to be less than satisfactory and insufficient to
support the interest rate risk exposure and CRE concentration. The CMOs had been
negatively impacted by rising interest rates that had contributed to a narrowed net interest
margin. The CMO, CRE, and ADC concentrations were 255 percent, 984 percent, and
209 percent of Tier 1 Capital, respectively, at that time.

To address concerns related to Affinity’s (1) elevated risk profile, (2) deteriorated overall
earnings performance, (3) decreased capital ratios, and (4) increased reliance on non-core
funding, examiners recommended that the FDIC impose an informal action in the form of
a Memorandum of Understanding. After consideration of various factors, including the
bank’s commitment to addressing supervisory concerns, the DSC San Francisco Regional
Office concluded that a BBR would be an effective tool to strengthen and monitor the
institution’s progress. Accordingly, Affinity adopted a BBR in February 2008, which
focused on the bank’s less-than-satisfactory capital position and required Affinity to
submit a capital plan more commensurate with its current and anticipated risk profile. In
addition, the capital plan was to (1) address the deterioration in the bank’s financial
condition associated with insufficient capital to support the continued IRR exposure
caused by CMOs and (2) assess and quantify specific risk characteristics, including
earnings, liquidity, growth and branching activities, and the CRE concentration. The
BBR did not, however, address the need to reduce the risk associated with the bank’s
CRE and ADC concentrations.

March 2008 Visitation. This visitation was initiated to review bank management’s
actions to correct weaknesses identified at the August 2007 examination and to comply
with the February 2008 BBR. In addition, examiners placed significant emphasis on loan
review at this visitation due to concerns related to increases in past-due and
non-performing loans in the ADC portfolio.

Examiners identified significant deterioration in the bank’s asset quality since the August
2007 examination. ADC loans represented 82 percent of adverse classifications, which
had increased significantly from 21.9 percent of Tier 1 Capital at the August 2007
examination, to more than 70 percent of Tier 1 Capital. Examiners attributed the
deterioration in Affinity’s asset quality to the downturn in the residential real estate
market. In addition, examiners identified a substantial increase in Special Mention loans
and highlighted the potential for further asset quality deterioration should real estate
market conditions worsen. The FDIC’s Transmittal of Safety and Soundness Report of
Visitation, dated May 27, 2008, expressed concerns regarding Affinity’s overall condition
and stated that the bank’s condition was less than satisfactory, with notable deterioration
in asset quality.




                                             17
However, supervisory action to address concerns identified at this visitation was limited
to recommending that Affinity continue efforts to improve asset quality and provide
details on plans to reduce the level of problem assets and improve earnings. Further,
examiners did not assign CAMELS component or composite ratings reflecting the
deteriorated condition of the institution at the time, as allowed by the Examination
Manual. Rather, at the conclusion of the visitation, examiners advised management that,
if ratings were assigned, they would recommend a downgrade in the asset quality rating
from “2” to “3”, given the level of adversely classified items, with all other ratings
remaining the same. A “3” rating would have indicated, in part, that (1) asset quality or
credit administration practices were less than satisfactory; (2) trends may have indicated
deterioration in asset quality or an increase in risk exposure; and (3) the level and severity
of classified assets and risks required an elevated level of supervisory concern.

October 2008 Examination. During the 6 months following the March 2008 visitation,
Affinity’s deterioration and trends identified at the March 2008 visitation continued and
became more pronounced. Examiners concluded that the bank’s CRE concentration well
exceeded safe and sound levels. In addition, based on the level of the bank’s CRE
concentration, Affinity ranked in the 98th percentile among its peers. Further, examiners
noted that since the August 2007 examination:

      the non-owner occupied CRE concentration had increased from 830 percent to
       897 percent of Total Risk-Based Capital and that Affinity had the fifth highest
       CRE concentration in the San Francisco Region; and

      the bank’s non-farm nonresidential properties represented the largest CRE
       concentration, at 358 percent of Total Risk-Based Capital, followed by
       multifamily residential properties at 340 percent.

In addition, examiners identified substantial deterioration in the bank’s CRE and ADC
concentrations, heightened volume of classifications, and increased severity of problem
assets. Adverse classifications had increased from $20.1 million to $120.7 million and
the ALLL increased from $8.6 million to $12.5 million. Examiners also recommended a
$5.4 million increase in the ALLL. The bank’s high-risk profile was further heightened
by the fact that Affinity’s capital ratios had decreased.

Affinity’s actions to address the previously identified deterioration in asset quality had
proven to be ineffective. In addition, Affinity’s risk management processes were not
adequate in relation to economic conditions and asset concentrations. Examiners noted
that bank management had improved its monitoring, but Affinity continued to have a
significant level of credit risk concentration that contributed to the high volume of
adversely classified assets. As a result of the October 2008 examination, the FDIC and
the CDFI issued a C&D, effective April 22, 2009, that included a provision to diversify
the bank’s loan portfolio and reduce concentrations in CRE and ADC loans.

June 2009 Visitation. The FDIC and the CDFI performed a targeted on-site visitation to
assess Affinity’s financial condition in June 2009. Examiners downgraded Affinity’s
capital, asset quality, management, and earnings component and composite ratings each


                                             18
to “5”, or critically deficient. Asset classifications were 318 percent of capital and
reserves. The need to increase loan loss provisions prevented improvement in the bank’s
capital and earnings. The FDIC and the CDFI reported that management was
aggressively working to identify and address problem loans. However, examiners also
concluded that Affinity was overwhelmed by the magnitude of real estate market
conditions due to the heavy concentration in CRE lending, specifically ADC loans. In
addition, examiners concluded that the deterioration in Affinity’s financial condition was
beyond management’s ability to correct and control.

Earlier and More Aggressive Supervisory Action May Have Been Prudent

Although Affinity adopted a BBR as a result of the August 2007 examination, the
resolution did not address the need to reduce the bank’s high CRE and ADC
concentrations and the risks that those loans presented to the institution. A lesson learned
with respect to CRE and ADC loan concentrations, like those at Affinity, is that early and
aggressive supervisory intervention is prudent. At the time of the August 2007
examination, Affinity’s CRE and ADC concentrations, coupled with the CMO
concentration, resulted in an extremely high risk profile for the bank. Examiners
identified and took action to address the risks that the CMO concentration presented to
Affinity. However, examiners did not similarly address the CRE and ADC
concentrations which, at that time, significantly exceeded the levels that the Joint
Guidance states may be identified for further supervisory analysis.

Specific supervisory action regarding the need to reduce the CRE and ADC
concentrations was not taken until after the October 2008 examination, when the FDIC
and the CDFI issued a C&D to Affinity in April 2009. With the benefit of hindsight,
earlier supervisory steps may have been prudent. Such steps could have included
(1) requiring the institution, at the August 2007 examination, to provide a written plan to
address and reduce its level of concentrations and the associated risks; (2) taking
additional action after the March 2008 visitation, which identified continued high CRE
and ADC concentrations and substantial deterioration in the bank’s asset quality, centered
in ADC loans, in the form of increased adversely classified assets; and/or (3) assigning
new ratings for the CAMELS component and composite elements, including asset
quality, at the March 2008 visitation, to reflect the deterioration identified since the
August 2007 examination.

DSC officials agreed that, in general, earlier and more aggressive supervisory action
related to the CRE and ADC concentration risk at Affinity may have been prudent. DSC
officials specifically noted that, as previously discussed, examiners relied on Affinity’s
Board and management’s commitment to take appropriate action to address supervisory
concerns identified at the August 2007 examination. Examiners also considered
Affinity’s Board and management's previous record of correcting deficiencies when
deciding upon a course of supervisory action. With respect to steps taken as a result of
the March 2008 visitation, DSC officials acknowledged that, looking back, issuing new
ratings may have been commensurate with the institution’s financial deterioration and
risk profile.



                                            19
Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured nonmember banks that are not adequately capitalized. Table 6 provides
Affinity Bank’s capital ratios as of December 31, 2008 and March 31, 2009.

Table 6: Affinity’s Capital Ratios Relative to PCA Thresholds for Well Capitalized
         Banks
                                                       Affinity’s Capital Category and Ratios
                              PCA Thresholds
                                                      December 31, 2008        March 31, 2009
 Capital Category             Well Capitalized        Adequately Capitalized   Undercapitalized
 Tier 1 Leverage Capital      5% or more                      4.74%                 4.44%
 Tier 1 Risk-Based
                              6% or more                      6.42%                 6.11%
 Capital
 Total Risk-Based
                              10% or more                     7.68%                 7.38%
 Capital
Source: Examination reports and UBPRs for Affinity.

We concluded that the FDIC properly implemented applicable PCA provisions of
section 38 based on the supervisory actions taken for Affinity. At the October 2008
examination, Affinity was determined to be Adequately Capitalized, and, as such, access
to brokered deposits became restricted based on section 29 of the FDI Act and Part 337.6
of the FDIC Rules and Regulations. Affinity and Affinity Bank Holding Company, Inc.
submitted a Troubled Asset Relief Program (TARP) application to the FDIC, which was
subsequently withdrawn.

Other significant steps taken by the FDIC, the CDFI or Affinity to address the bank’s
capital during 2009 included the following:

April 22, 2009. The FDIC and the CDFI issued a C&D to Affinity that included
provisions requiring the bank to (1) submit a capital plan and (2) substantially increase
the bank’s Tier 1 Capital incrementally so that within 180 days the level would equal or
exceed 10 percent of the bank’s total assets, and maintain that level for the period during
which the C&D was in effect.

May 19, 2009. The FDIC informed Affinity that based on the March 31, 2009 Call
Report the bank was considered to be Undercapitalized. Accordingly, Affinity became
subject to the mandatory requirements of section 38, including submission of a capital
restoration plan, and restrictions on asset growth, acquisitions, new activities, and new
branches. Further restrictions applied to the payment of dividends or management fees,
or making any other capital distributions.



                                                  20
June 18, 2009. The FDIC informed Affinity that the capital plan the bank submitted was
unacceptable and needed to be revised to specifically detail (1) the levels of capital to be
attained during each year the plan would be in effect, (2) how the bank would comply
with PCA restrictions, and (3) the types and levels of activities in which Affinity would
engage.

June 30, 2009. The FDIC notified the bank that its PCA category was Significantly
Undercapitalized based on the bank’s May 31, 2009 general ledger.

July 1, 2009. The CDFI notified Affinity that because of its critical condition, the bank
had to promptly increase its capital or merge with or sell its business to another
depository institution. In addition, the notification advised Affinity that, on or before
August 20, 2009, the bank had to increase its tangible shareholders’ equity by the greater
of $66 million or the amount necessary to make tangible shareholders’ equity equal to at
least 8 percent of total tangible assets of the bank.

July 7, 2009. The FDIC notified the bank that it was Critically Undercapitalized based
on the results of the June 15, 2009 visitation. The notification also required Affinity to
file a written capital restoration plan with the San Francisco Regional Office by July 14,
2009.

July 31, 2009. The FDIC issued a Supervisory PCA Directive that required Affinity to,
among other things:

      sell or take action to be acquired by another depository institution holding
       company or combine with another insured depository institution,

      restrict the use of brokered deposits based on provisions of section 38 of the FDI
       Act and Part 337.6 of the FDIC Rules and Regulations,

      restrict the interest rates the bank paid on deposits to comply with Part 337.6 of
       the FDIC Rules and Regulations, or

      pay no bonuses to, or increase the compensation of, bank directors or officers
       without prior written FDIC approval.

August 28, 2009. Affinity’s attempts to sell the bank and/or substantially increase
capital were unsuccessful. Accordingly, the CDFI closed Affinity and named the FDIC
as receiver.




                                            21
Corporation Comments

After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On March 22, 2010, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of Affinity’s
failure. With respect to our assessment of supervision, DSC stated that based on the
results of the August 2007 examination, DSC deliberated and proposed an informal
enforcement action and that Affinity’s Board adopted a BBR in February 2008 that
required the bank to augment its capital position commensurate with its risk profile. DSC
agreed, however, that a stronger regulatory response could have been taken to address the
weak practices identified at that examination. Further, DSC stated that it has issued
updated guidance reminding examiners to take appropriate action when concentration and
funding risks are imprudently managed.




                                           22
                                                                               Appendix 1

                    Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from September 2009 to March 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Affinity’s operations from June 2005 until
its failure in August 2009. Our review also entailed an evaluation of the regulatory
supervision of Affinity over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports and supporting workpapers prepared jointly by
         FDIC and CDFI examiners for the July 2005 through June 2009 examinations and
         visitations.

        Reviewed the following:

             Documentation for offsite monitoring activities performed by the FDIC.

             Bank data and correspondence maintained at the DSC’s San Francisco
              Regional Office and Los Angeles West Field Office.

             Reports prepared by the Division of Resolutions and Receiverships and
              DSC relating to the bank’s closure.

             Pertinent DSC policies and procedures.



                                             23
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


             Audit reports of the bank’s external auditors, Crowe Horwath LLP and
              Crowe Chizek and Company LLP.

             Actions that DSC implemented to comply with (1) provisions of section 29
              of the FDI Act and FDIC Rules and Regulations, Part 337, Unsafe and
              Unsound Banking Practices restricting Affinity’s use of brokered deposits;
              and (2) section 38 of the FDI Act, including, but not limited to, issuing PCA
              notification letters and a PCA Directive, and restricting Affinity’s growth
              and payment of dividends, when applicable, based on the bank’s capital
              category.

       Interviewed the following FDIC officials:

             DSC management in Washington, D.C. and the San Francisco Regional
              Office.

             FDIC examiners from the DSC Los Angeles West Field Office who
              conducted examinations and visitations of Affinity.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand Affinity’s management
controls pertaining to causes of failure and material loss as discussed in the body of this
report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.




                                             24
                                                                            Appendix 1

                   Objectives, Scope, and Methodology


Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           25
                                                                                     Appendix 2

                                  Glossary of Terms


       Term                                              Definition
Adversely Classified   Assets subject to criticism and/or comment in an examination report.
Assets                 Adversely classified assets are allocated on the basis of risk (lowest to
                       highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for Loan     Federally insured depository institutions must maintain an ALLL that is
and Lease Losses       adequate to absorb the estimated loan losses associated with the loan and
(ALLL)                 lease portfolio (including all binding commitments to lend). To the extent
                       not provided for in a separate liability account, the ALLL should also be
                       sufficient to absorb estimated loan losses associated with off-balance sheet
                       loan instruments such as standby letters of credit.

Bank Board             A Bank Board Resolution is an informal commitment adopted by a financial
Resolution (BBR)       institution’s Board of Directors (often at the request of the FDIC) directing
                       the institution’s personnel to take corrective action regarding specific noted
                       deficiencies. A BBR may also be used as a tool to strengthen and monitor
                       the institution’s progress with regard to a particular component rating or
                       activity.
Call Report            Consolidated Reports of Condition and Income (also known as the Call
                       Report) are reports that are required to be filed by every national bank, state
                       member bank, and insured nonmember bank pursuant to the Federal Deposit
                       Insurance Act. These reports are used to calculate deposit insurance
                       assessments and monitor the condition, performance, and risk profile of
                       individual banks and the banking industry.
Cease and Desist       A C&D is a formal enforcement action issued by a financial institution
Order (C&D)            regulator to a bank or affiliated party to stop an unsafe or unsound practice
                       or a violation of laws and regulations. A C&D may be terminated when the
                       bank’s condition has significantly improved and the action is no longer
                       needed or the bank has materially complied with its terms.
Collateralized         Collateralized Mortgage Obligations (CMOs) are debt obligations
Mortgage Obligations   collateralized by various types of mortgage loans or mortgage-backed
(CMOs)                 securities.
Concentration          A concentration is a significantly large volume of economically related
                       assets that an institution has advanced or committed to a certain industry,
                       person, entity, or affiliated group. These assets may, in the aggregate,
                       present a substantial risk to the safety and soundness of the institution.




                                               26
                                                                                     Appendix 2

                                   Glossary of Terms


        Term                                             Definition
Prompt Corrective       The purpose of PCA is to resolve the problems of insured depository
Action (PCA)            institutions at the least possible long-term cost to the Deposit Insurance
                        Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                        Federal Regulations, section 325.101, et. seq., implements section 38,
                        Prompt Corrective Action, of the FDI Act, 12 United States Code section
                        1831(o), by establishing a framework for determining capital adequacy and
                        taking supervisory action against depository institutions that are in an unsafe
                        or unsound condition. The following terms are used to describe capital
                        adequacy: (1) Well Capitalized, (2) Adequately Capitalized, (3)
                        Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                        Undercapitalized.

                        A PCA Directive is a formal enforcement action seeking corrective action or
                        compliance with the PCA statute with respect to an institution that falls
                        within any of the three undercapitalized categories.
Troubled Asset Relief   TARP is a program of the United States Treasury Department to purchase
Program (TARP)          assets and equity from financial institutions to strengthen the financial
                        sector.
Uniform Bank            The UBPR is an individual analysis of financial institution financial data and
Performance Report      ratios that includes extensive comparisons to peer group performance. The
(UBPR)                  report is produced by the Federal Financial Institutions Examination Council
                        for the use of banking supervisors, bankers, and the general public and is
                        produced quarterly from Call Report data submitted by banks.
Wholesale Funding       Wholesale funding sources include, but are not limited to, federal funds,
Sources                 public funds, Federal Home Loan Bank advances, the Federal Reserve’s
                        primary credit program, foreign deposits, brokered deposits, and deposits
                        obtained through the Internet or CD listing services. Financial institutions
                        may use wholesale funding sources as an alternative to core deposits to
                        satisfy funding and liability management needs.




                                                27
                                                                  Appendix 3

                          Acronyms

ADC      Acquisition, Development, and Construction Loans
ALLL     Allowance for Loan and Lease Losses
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity
         to Market Risk
CDFI     California Department of Financial Institutions
CLP      Contingency Liquidity Plan
CMO      Collateralized Mortgage Obligations
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FDIC     Federal Deposit Insurance Corporation
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
ILC      Industrial Loan Company
IRR      Interest Rate Risk
OIG      Office of Inspector General
PCA      Prompt Corrective Action
PEP      Pre-Examination Planning
REST     Real Estate Stress Test
ROE      Report of Examination
S&L      Savings and Loan
SFRO     San Francisco Regional Office
TARP     Troubled Asset Relief Program
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System


                                   28
                                                                                Appendix 4
                                    Corporation Comments




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                         March 22, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of Affinity Bank, Ventura,
                  California (Assignment 2010-010)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Affinity
Bank, Ventura, California (Affinity), which failed on August 28, 2009. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on March 5, 2010.

Affinity failed due to its Board of Directors (Board) and management not implementing adequate
controls to identify, measure, monitor, and control the risks associated with Affinity’s growth
and concentrations in commercial real estate (CRE) and acquisition, development, and
construction (ADC) loans. Affinity also relied heavily on wholesale funding to support its
growth in the CRE and ADC concentrations. Due to the downturn in Affinity’s real estate
market, losses associated with deterioration in Affinity’s loan portfolio, particularly the ADC
loans, far exceeded earnings and eroded capital. Ultimately, the California Department of
Financial Institutions closed Affinity due to its Critically Undercapitalized position.

The Report concludes that earlier and greater supervisory attention to Affinity may have been
warranted given the elevated risks associated with CRE and ADC concentrations in a declining
real estate market and Affinity’s less than satisfactory financial condition, especially after the
August 2007 examination. At the August 2007 examination, examiners concluded that loan
quality, capital, and earnings could be negatively impacted if specific or overall markets
deteriorated, due to Affinity’s concentrations in CRE and ADC. Based upon the results of the
August 2007 examination, DSC deliberated and proposed an informal enforcement action.
Affinity’s Board adopted a Bank Board Resolution (BBR) in February 2008 that contained
provisions requiring Affinity to augment its capital position commensurate with its risk profile.

We agree that a stronger regulatory response could have been taken to address the weak practices
identified at the August 2007 examination. In recognition that strong supervisory attention is
necessary for institutions with high CRE/ADC concentrations and volatile funding sources, DSC
has issued updated guidance reminding examiners to take appropriate action when these risks are
imprudently managed.

Thank you for the opportunity to review and comment on the Report.




                                                  29
